Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




        ALLOWABILITY OF
 RECOVERY ACT COSTS CLAIMED
 BY PRIMARY HEALTH CARE, INC.,
 FOR THE PERIOD JUNE 29, 2009,
     THROUGH JUNE 28, 2011

  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Patrick J. Cogley
                                               Regional Inspector General

                                                     September 2012
                                                      A-07-11-05019
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Health Centers Consolidation Act of 1996 (P.L. No. 104-299) consolidated the Health
Center Program under section 330 of the Public Health Service Act (42 U.S.C. § 254b). The
Health Center Program provides comprehensive primary health care services to medically
underserved populations through planning and operating grants to health centers. Within the
U.S. Department of Health and Human Services (HHS), the Health Resources and Services
Administration (HRSA) administers the program.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, HRSA received $2.5 billion, $2.0 billion of which was to expand the
Health Center Program by serving more patients, stimulating new jobs, and meeting the expected
increase in demand for primary health care services among the Nation’s uninsured and
underserved populations. HRSA awarded a number of grants using Recovery Act funding in
support of the Health Center Program, including Increased Demand for Services (IDS), Facilities
Investment Program (FIP) grants, and Capital Improvement Program (CIP) grants.

Primary Health Care, Inc. (PHC), central Iowa’s only community health center, provides medical
and dental services to the Des Moines, Iowa, metropolitan area and the Marshalltown, Iowa,
area. Under the provisions of the Recovery Act, HRSA awarded PHC three grants totaling
$4,160,596. These grants included an IDS grant in the amount of $515,367, a CIP grant of
$1,029,800, and a FIP grant of $2,615,429. This report presents the results of our review of the
CIP grant (number C81CS14317); we are separately reporting on the results of our reviews of
the IDS and FIP grants.

OBJECTIVES

Our objectives were to determine whether costs claimed by PHC under the CIP Recovery Act
grant were allowable pursuant to applicable Federal regulations and the terms of the grant, and to
evaluate PHC’s ability to adequately manage its property pursuant to Federal requirements and
the terms of the grant.

SUMMARY OF FINDINGS

Costs claimed by PHC under the CIP Recovery Act grant were generally allowable pursuant to
applicable Federal regulations and the terms of the grant. Of the $1,029,800 that PHC claimed,
$1,029,501 was allowable pursuant to these requirements. However, PHC claimed unallowable
costs of $299 for a coffeemaker. In addition, PHC maintained a property management system
that did not comply with Federal regulations because it lacked many of the required elements of
information necessary to ensure adequate and accurate accountability of Federal resources.




                                                i
RECOMMENDATIONS

We recommend that HRSA:

    •   recoup $299 in unallowable expenditures from PHC and

    •   ensure that PHC complies with Federal regulations by maintaining a property
        management system that includes all the required elements of information.

GRANTEE COMMENTS

In written comments on our draft report, PHC referred to the unallowable expenditure for the
coffeemaker as an “isolated error” which “was incorrectly recorded to the grant.” PHC also said
that its property management system maintained the required elements of information “in a
variety of locations/systems ….” PHC added that it would integrate these elements of
information into one list within 120 days.

PHC’s comments appear in their entirety as Appendix A.

OFFICE OF INSPECTOR GENERAL RESPONSE TO GRANTEE COMMENTS

We agree that the unallowable expenditure appeared to be an isolated error which was
incorrectly recorded to the grant. PHC did not make us aware, during our fieldwork, that it
maintained the required elements of information for its property management system in a variety
of locations and systems. We therefore continue to maintain, on the basis of the documentation
provided to us during our review, that PHC generally lacked the following elements of
information for its property management system: an identification number; source of the
equipment, including the award number; whether the title vested in the Federal Government;
information from which one could calculate the percentage of Federal participation in the cost of
the equipment; the condition of the equipment; and the date the information was reported.
Nevertheless, PHC agreed to integrate the required information into a single property
management system.

HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS

In written comments on our draft report, HRSA concurred with our recommendations and said
that it would ensure that PHC adheres to the corrective actions described to address our audit
findings. HRSA’s comments appear in their entirety as Appendix B.




                                               ii
                                                   TABLE OF CONTENTS

                                                                                                                                  Page

INTRODUCTION.................................................................................................................1

       BACKGROUND ...........................................................................................................1
          The Health Center Program ..................................................................................1
          American Recovery and Reinvestment Act Grants ..............................................1
          Primary Health Care, Inc. .....................................................................................1
          Federal Requirements for Federal Grantees .........................................................2

       OBJECTIVES, SCOPE, AND METHODOLOGY .......................................................2
           Objectives .............................................................................................................2
           Scope .....................................................................................................................2
           Methodology .........................................................................................................2

FINDINGS AND RECOMMENDATIONS .......................................................................3

       UNALLOWABLE COSTS CLAIMED ........................................................................3

       PROPERTY MANAGEMENT SYSTEM ....................................................................4

       RECOMMENDATIONS ..............................................................................................4

       GRANTEE COMMENTS .............................................................................................5

       OFFICE OF INSPECTOR GENERAL RESPONSE TO GRANTEE COMMENTS...5

       HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS.......5

APPENDIXES

       A: GRANTEE COMMENTS

       B: HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS




                                                                     iii
                                      INTRODUCTION

BACKGROUND

The Health Center Program

The Health Centers Consolidation Act of 1996 (P.L. No. 104-299) consolidated the Health
Center Program under section 330 of the Public Health Service Act (42 U.S.C. § 254b). The
Health Center Program provides comprehensive primary health care services to medically
underserved populations through planning and operating grants to health centers. Within the
U.S. Department of Health and Human Services (HHS), the Health Resources and Services
Administration (HRSA) administers the program.

American Recovery and Reinvestment Act Grants

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, HRSA received $2.5 billion, $2.0 billion of which was to expand the
Health Center Program by serving more patients, stimulating new jobs, and meeting the expected
increase in demand for primary health care services among the Nation’s uninsured and
underserved populations. HRSA awarded a number of grants using Recovery Act funding in
support of the Health Center Program, including Increased Demand for Services (IDS), Facilities
Investment Program (FIP) grants, and Capital Improvement Program (CIP) grants.

Primary Health Care, Inc.

Primary Health Care, Inc. (PHC), central Iowa’s only community health center, provides medical
and dental services to the Des Moines, Iowa, metropolitan area and the Marshalltown, Iowa,
area.

During calendar year 2009, and under the provisions of the Recovery Act, HRSA awarded PHC
three grants totaling $4,160,596:

   •   an IDS grant in the amount of $515,367, awarded March 27, 2009, to increase staffing
       and extend existing services;

   •   a CIP grant of $1,029,800, awarded June 25, 2009, to relocate the Outreach Project and
       Pharmacy to a larger facility in Des Moines, relocate and expand the Marshalltown dental
       clinic to a new site, and renovate the Marshalltown medical clinic; and

   •   a FIP grant of $2,615,429, awarded October 19, 2009, to consolidate billing office space
       and expand space for both clinical services and administrative functions at the existing
       East Side Center in Des Moines.

This report presents the results of our review of the CIP grant (number C81CS14317); we are
separately reporting on the results of our reviews of the IDS and FIP grants.


                                               1
Federal Requirements for Federal Grantees

Title 45, part 74, of the Code of Federal Regulations (CFR) establishes uniform administrative
requirements governing HHS grants and agreements awarded to nonprofit organizations. As a
nonprofit organization in receipt of Federal funds, PHC must comply with Federal cost principles
in 2 CFR pt. 230, Cost Principles for Non-Profit Organizations (Office of Management and
Budget Circular A-122), incorporated by reference at 45 CFR § 74.27(a). These cost principles
require that grant expenditures submitted for Federal reimbursement be allowable.

To help ensure that Federal requirements are met, grantees must maintain financial management
systems in accordance with 45 CFR § 74.21. These systems must provide for accurate, current, and
complete disclosure of the financial results of each HHS-sponsored project or program (45 CFR
§ 74.21(b)(1)) and must ensure that accounting records are supported by source documentation
(45 CFR § 74.21(b)(7)). Grantees also must have written procedures for determining the
allowability of expenditures in accordance with applicable Federal cost principles and the terms and
conditions of the award (45 CFR § 74.21(b)(6)).

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether costs claimed by PHC under the CIP Recovery Act
grant were allowable pursuant to applicable Federal regulations and the terms of the grant, and to
evaluate PHC’s ability to adequately manage its property pursuant to Federal requirements and
the terms of the grant.

Scope

Our review included CIP Recovery Act costs totaling $1,029,800 that PHC claimed for grant
number C81CS14317 from June 29, 2009, through June 28, 2011.

We did not perform an overall assessment of PHC’s internal control structure. Rather, we
reviewed only the internal controls that pertained directly to our objective.

We performed fieldwork at PHC’s office in Urbandale, Iowa, in September 2011.

Methodology

To accomplish our objective, we:

   •    reviewed relevant Federal laws, regulations, and guidance;

   •    reviewed HRSA’s Notice of Grant Award;

   •    reviewed PHC’s policies and procedures;


                                                2
   •   interviewed PHC officials to gain an understanding of its accounting systems, internal
       controls, and implementation of the Recovery Act grant awards;

   •   compared PHC’s total costs to funds drawn from Recovery Act grants;

   •   reviewed all invoices charged to the CIP grant;

   •   reviewed PHC’s procurement contracting process used for CIP construction and
       renovation project contracts and verified that PHC had a Notice of Federal Interest on file
       for the CIP construction projects;

   •   reviewed PHC’s property management system, in particular by reviewing all equipment
       charged to the CIP grant whose purchase cost exceeded $1,000; and

   •   discussed the results of our audit with PHC officials on September 21, 2011.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                         FINDINGS AND RECOMMENDATIONS

Costs claimed by PHC under the CIP Recovery Act grant were generally allowable pursuant to
applicable Federal regulations and the terms of the grant. Of the $1,029,800 that PHC claimed,
$1,029,501 was allowable pursuant to these requirements. However, PHC claimed unallowable
costs of $299 for a coffeemaker. In addition, PHC maintained a property management system
that did not comply with Federal regulations because it lacked many of the required elements of
information necessary to ensure adequate and accurate accountability of Federal resources.

UNALLOWABLE COSTS CLAIMED

Pursuant to 2 CFR pt. 230, Appendix A, § (2)(a), to be allowable under an award, grantee costs
must be reasonable for the performance of the award and be allocable thereto under these
principles.

Contrary to these Federal requirements, PHC claimed $299 of unallowable CIP grant costs for a
coffeemaker. This expenditure was neither reasonable for the performance of the award nor
allocable to the CIP grant award, and was therefore not allowable for Federal reimbursement
under the terms of the grant. Further, the invoice for the coffeemaker was coded as though this
cost were to be covered by PHC funds. Therefore, this expenditure was not intended to be
charged to the CIP grant. Because this expenditure represented the only discrepancy we
identified out of the $1,029,800 in costs that PHC claimed and that we reviewed, we regard it as
an isolated error. To the extent that we reviewed PHC’s internal controls, those controls
generally appeared to be adequate to safeguard and properly account for Federal grant funds.

                                                3
PROPERTY MANAGEMENT SYSTEM

Pursuant to 2 CFR pt. 215.34 (f), recipients of Federal awards must maintain a property
management system for equipment acquired with Federal funds. This regulation further states
that the property management system shall include all of the following elements of information:

   •    a description of the equipment;

   •    manufacturer’s serial number, model number, Federal stock number, national stock
        number, or other identification number;

   •    source of the equipment, including the award number;

   •    whether title vests in the recipient or the Federal Government;

   •    acquisition date (or date received, if the equipment was furnished by the Federal
        Government) and cost;

   •    information from which one can calculate the percentage of Federal participation in the
        cost of the equipment;

   •    location and condition of the equipment and the date the information was reported;

   •    unit acquisition cost; and

   •    ultimate disposition data, including date of disposal and sales price or the method used to
        determine current fair market value when a recipient has been compensated the Federal
        awarding agency for its share.

PHC did not comply with Federal requirements for property management. Our review of all
equipment charged to the CIP grant whose purchase cost exceeded $1,000 indicated that PHC’s
property management system lacked many of the required elements of information necessary to
ensure adequate and accurate accountability of Federal resources. Specifically, the items of
equipment being accounted for in PHC’s property management system generally lacked the
following elements of information: an identification number; source of the equipment, including
the award number; whether the title vested in the Federal Government; information from which
one could calculate the percentage of Federal participation in the cost of the equipment; the
condition of the equipment; and the date the information was reported. PHC’s property
management system for these items of equipment generally contained only the purchase date,
item name and description, vendor, location, and cost.

RECOMMENDATIONS

We recommend that HRSA:

    •   recoup $299 for unallowable expenditures from PHC and

                                                 4
    •   ensure that PHC complies with Federal regulations by maintaining a property
        management system that includes all the required elements of information.

GRANTEE COMMENTS

In written comments on our draft report, PHC referred to the unallowable expenditure for the
coffeemaker as an “isolated error” which “was incorrectly recorded to the grant.” PHC also said
that its property management system maintained the required elements of information “in a
variety of locations/systems ….” PHC added that it would integrate these elements of
information into one list within 120 days.

PHC’s comments appear in their entirety as Appendix A.

OFFICE OF INSPECTOR GENERAL RESPONSE TO GRANTEE COMMENTS

We agree that the unallowable expenditure appeared to be an isolated error which was
incorrectly recorded to the grant. PHC did not make us aware, during our fieldwork, that it
maintained the required elements of information for its property management system in a variety
of locations and systems. We therefore continue to maintain, on the basis of the documentation
provided to us during our review, that PHC generally lacked the following elements of
information for its property management system: an identification number; source of the
equipment, including the award number; whether the title vested in the Federal Government;
information from which one could calculate the percentage of Federal participation in the cost of
the equipment; the condition of the equipment; and the date the information was reported.
Nevertheless, PHC agreed to integrate the required information into a single property
management system.

HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS

In written comments on our draft report, HRSA concurred with our recommendations and said
that it would ensure that PHC adheres to the corrective actions described to address our audit
findings. HRSA’s comments appear in their entirety as Appendix B.




                                                5
APPENDIXES
                                   APPENDIX A: GRANTEE COMMENTS 





      June 12, 2012




      Office of Inspector General
      Office of Audit Services, Region VII
      601 Ea st 12'" Street, Room 0429
      Kansas City, MO 64106

      Re: Grantee Comments regarding Report ## A-07-11-0S-19

      To Whom It May Concern:

      Primary Health Care, Inc. is in receipt of the draft report for the CIP Recovery Act grant. We have the
      following co mments:

      The report indicated that PHC maintained a property management system that did not comply with
      Federal regulations because it lacked required elements. PHC maintained all required elements needed
      to ensure adequate and accurate accountability of Federal resources as required, howeve r, these
      elements were maintained in a variety of locations/systems and there was not one list that contained all
      elements. As a result of this audit, and to improve our internal controls, we will integrate all required
      information for fixed assets into one list. This will be completed within 120 days.

      AS noted in the audit report, there was one isolated error in which an unallowable cost was internally
      coded appropriately for payment from PHC funds, however, it was incorrectly recorded to the grant.
      We carefully monitor grant expenditures to assure that costs incurred are allowable.

      Thank you for the opportunity to comment.

      Sincerely,

        f./                    I   J
       ~ I+..v~vr'-'
      Kelly Huntsman, Executive Dire cto r




  9943 Hickman Road· Suite 105 • Urband ale, Iowa 50322-5304 • Phone 515-248- 1447 • Fax 5 15-248-1440
Mission Statement: PrimalY Ile.llth Care. Inc.          I~   a team orearmg profeSSionals providing health C;1re   .C
         ;1nd   SlI   mnivt'   ~{"I vices for en Ie in Cenuallow:l to lm lrCwe tht'ir ( 1I,\llr)' orlife           1   are
                                                                                             Page 10f2


    APPENDIX B: HEALTH RESOURCES AND SERVICES
            ADMINISTRATION COMMENTS



DEPARTMENT OF HEALTH & HUMAN SERVICES                               Health Resources and Services
                                                                    Administration


                                                                    Rockville, MD 20857



                                      AUG 1 5 1012


TO: 	         lnspector General

FROM: 	       Administrator

SUBJECT: 	    OIG Draft Report: "Allowability of Recovery Act Costs Claimed by
              Primary Health Care, Inc., for the Period June 29, 2009, Through
              June 28, 2011" (A-07-11 -05019)

Attached is the Health Resources and Services Administration's (HRSA) response to
the DIG ' s draft report, "Allowability of Recovery Act Costs Claimed by Primary
Health Care, Inc., for the Period June 29,2009 Through June 28, 2011"
(A-07-11 -05019). If you have any questions, please contact Sandy Seaton in HRSA's
Office of Federal Assistance Management at (301) 443 -2432.


                                         ~C<./£:I?~~
                                           Mary K. Wakefield, Ph.D., R.N .

Attachment
                                                                                                Page 20f2




 Health Resources and Services Administration's Comments on the DIG Draft Report­
"Allowability of Recovery Act Costs Claimed by Primary Health Care, Inc., for the Period
                 June 29, 2009, Througb June 28, 2011" (A-07-11-050\9)

The Health Resources and Services Administration (HRSA) appreciates the opportunity to
respond to the above draft report. HRSA's response to the Office ofInspector General (DIG)
draft recommendations are as follows:

OIG Recommendation to HRSA:

We recommend that HRSA recoup $299 [or unallowable expenditures from Primary Health 

Care, Inc. (PHq. 


HRSA Response: 


HRSA concurs with the OIG recommendation and will support any recovery efforts of 

unallowable expenditures. 


OIG Recommendation to HRSA: 


We recommend that I-IRSA ensure that PHC complies with Federal regulations by maintaining a 

property management system that includes all the required elements of information. 


HRSA Response: 


HRSA concurs with the OIG recommendation and will assure that the proposed corrective 

actions are adhered to by the grantee.
